OIG Audit Report GR-40-08-004

Office of Justice Programs National Institute of Justice Cooperative Agreements Awarded to the Palm Beach County Sheriffs Office, West Palm Beach, Florida
Audit Report GR-GR-40-08-004
September 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division has completed an audit of the U.S. Department of Justice, Office of Justice Programs (OJP), National Institute of Justice (NIJ) 2004, 2005, and 2006 DNA Capacity Enhancement Cooperative Agreements and the 2007 Forensic DNA Backlog Reduction Cooperative Agreement with the Palm Beach County Sheriff’s Office (Sheriff’s Office), West Palm Beach, Florida.1  The purpose of the Capacity Enhancement Cooperative Agreements was to improve DNA laboratory infrastructure and analysis capacity so DNA samples could be processed efficiently and cost effectively.2  The purpose of the 2007 Forensic DNA Backlog Reduction Cooperative Agreement was also to improve DNA laboratory infrastructure and analysis capacity and to analyze backlogged forensic DNA casework samples.
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims. The NIJ, a component of OJP, is the research, development, and evaluation agency of the U.S. Department of Justice and is dedicated to researching crime control and justice issues. The NIJ seeks to provide objective, independent, evidence-based knowledge and tools to meet the challenges of crime and justice issues, particularly at the state and local levels. 
 The Sheriff’s Office is located in West Palm Beach, Florida. Palm Beach County contains over 2,300 square miles of area and is the largest of Florida’s 67 counties. With a staff of over 3,800, the Sheriff’s Office serves nearly 700,000 people. A goal of the Sheriff’s Office Crime Laboratory (Laboratory) is to offer the highest quality forensic DNA testing program possible to the victims of criminal activity. The Laboratory seeks to accomplish this goal through a collaborative effort with law enforcement and the judicial system by conducting analyses on probative evidence and testifying to the DNA results in court. The Laboratory accepts evidence from more than 34 law enforcement agencies within the county of Palm Beach and the Medical Examiner’s Office. The primary objective of the Sheriff’s Office in the four cooperative agreements we audited was to automate DNA analysis so that the Laboratory could reduce the turn-around time for the delivery of test results and the backlog of unexamined evidence. 
 The purpose of this audit was to determine whether reimbursements claimed for costs under the agreements were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreements, and to determine program performance and accomplishments. The objective of our audit was to review performance in the following areas: (1) internal control environment; (2) drawdowns; (3) grant expenditures, including personnel and indirect costs; (4) budget management and control; (5) match; (6) property management; (7) program income; (8) financial status and progress reports; (9) grant requirements; (10) program performance and accomplishments; and (11) monitoring of subgrantees and contractors. We determined that personnel costs, indirect costs, match, program income, and subgrantees were not applicable to these cooperative agreements. 
 As shown in the following table, since September 2004 the NIJ awarded the Sheriff’s Office $740,042 to improve its laboratory infrastructure and analysis capacity.
COOPERATIVE AGREEMENTS AWARDED TO THE 
PALM BEACH COUNTY SHERIFF’S OFFICE 


 Award Number 
 Award Date 
 Award Amount 
 Award End Date 


 2004-DN-BX-K105 
 9/01/2004 
 $181,765 
 8/31/2006 


 2005-DA-BX-K075 
 10/1/2005 
 $152,103 
 3/31/2008 


 2006-DN-BX-K224 
 10/1/2006 
 $205,343 
 9/30/2008 


 2007-DN-BX-K091 
 10/1/2007 
 $200,831 
 9/30/2008 


 
 Total 
 $740,042 
 


Source: Office of Justice Programs grant award documents
We examined the Sheriff’s Office accounting records, financial and progress reports, and operating policies and procedures, and found that the Sheriff’s Office was generally in compliance with requirements under the cooperative agreements. However, we noted the following concerns.

The Sheriff’s Office applications under the NIJ’s 2004, 2005, and 2006 DNA Capacity Enhancement Programs did not include verifiable baseline data regarding the time required to analyze a forensic DNA sample from submission to delivery of test results. The program solicitation required that this data be included. Consequently, it is difficult to determine whether these awards are achieving the outcomes established by the program.
 Categorical Progress Reports submitted by the Sheriff’s Office to the NIJ did not always include the required performance data. Specifically, the final Progress Report for the fiscal year (FY) 2004 Capacity Enhancement Cooperative Agreement did not provide the average number of days between submission of a DNA sample to the Laboratory and delivery of test results to a requesting agency as required by the Cooperative Agreement. Because of this, coupled with the fact that the application by the Sheriff’s Office for this agreement did not include the baseline data as required by the program solicitation, we are unable to determine whether the purchases under this agreement made the Laboratory’s DNA analysis more efficient as envisioned by the program. 

These items are discussed in detail in the Findings and Recommendation section of the report. Our audit objectives, scope, and methodology are discussed in Appendix I.


 

Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
The NIJ awarded cooperative agreements instead of grants for these awards. Cooperative agreements are used when substantial collaboration is anticipated between the grantor and the grantee. Cooperative agreements are subject to the same rules as grants, and we will use variations of “cooperative agreement” and “grant” interchangeably throughout this report.





 




Return to OIG Home Page